1a
UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
-----------------------------------------------------------------------

No. 20-1941
-----------------------------------------------------------------------

JESUS VASQUEZ, JR.; PENNEY LEIGH VASQUEZ,
Debtors - Appellants,
v.
WILMINGTON SAVINGS FUND SOCIETY, FSB, as
Trustee of Stanwich Mortgage Trust F,
Creditor - Appellee.
-----------------------------------------------------------------------

Appeal from the United States District Court for the
Eastern District of North Carolina, at Wilmington.
James C. Dever III, District Judge. (7:20-cv-00062-D)
-----------------------------------------------------------------------

Submitted: April 27, 2021

Decided: April 30, 2021

-----------------------------------------------------------------------

Before KEENAN, WYNN, and FLOYD, Circuit Judges.
-----------------------------------------------------------------------

Affirmed by unpublished per curiam opinion.
-----------------------------------------------------------------------

2a
Richard P. Cook, RICHARD P. COOK, PLLC, Wilmington, North Carolina, for Appellants. Philip T. Evans,
HOLLAND & KNIGHT LLP, Washington, D.C., for Appellee.
-----------------------------------------------------------------------

Unpublished opinions are not binding precedent in
this circuit.
PER CURIAM:
Jesus Vasquez, Jr., and Penney Leigh Vasquez appeal the district court’s order affirming the bankruptcy
court’s order granting Wilmington Savings Fund Society, FSB’s motion to dismiss the adversary proceeding
filed by the Vasquezes in their Chapter 7 bankruptcy
proceeding. We have reviewed the record included on
appeal and find no error below. Accordingly, we affirm
for the reasons stated by the district court. Vasquez
v. Wilmington Savings Fund Soc’y, FSB, No. 7:20-cv00062-D (E.D.N.C. Aug. 27, 2020); see Dewsnup v. Timm,
502 U.S. 410 (1992). We dispense with oral argument
because the facts and legal contentions are adequately
presented in the materials before this court and argument would not aid the decisional process.
AFFIRMED

3a
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT
OF NORTH CAROLINA
SOUTHERN DIVISION No. 7:20-CV-62-D
JESUS VASQUEZ, JR., and
PENNEY LEIGH VASQUEZ

)
)
Appellants, )
ORDER
)
v.
) (Filed Aug. 27, 2020)
WILMINGTON SAVINGS
)
FUND SOCIETY, FSB,
)
Appellee. )

On March 27, 2020, Jesus Vasquez, Jr., and Penney Leigh Vasquez (the “Vasquezes” or “appellants”)
appealed the order of the United States Bankruptcy
Court for the Eastern District of North Carolina (the
“Bankruptcy Court”) granting Wilmington Savings
Fund Society, FSB’s (the “Wilmington Savings Fund”
or “appellee”) motion to dismiss the Vasquezes’ adversary proceeding [D.E. 1].1 The Bankruptcy Court held
that, under Dewsnup v. Timm, 502 U.S. 410 (1992), the
Vasquezes could not “strip down” Wilmington Savings
Fund’s lien to the value of the underlying collateral in
their Chapter 7 bankruptcy. See Order [D.E. 1-1] 5. As
discussed below, the court affirms the Bankruptcy
Court’s order.

1

On May 26, 2020, the court substituted Wilmington Savings Fund for JP Morgan Chase Bank, N.A. (“Chase”) as the appellee in this action. See [D.E. 16].

4a
I.
On April 22, 2019, the Vasquezes filed a petition
under Chapter 7 of the Bankruptcy Code. See [D.E. 61] 3. Before the Vasquezes received their Chapter 7 discharge, they initiated an adversary proceeding against
Chase (Wilmington Savings Fund’s predecessor-in-interest) concerning Chase’s lien on the Vasquezes’ real
property located at 404 Swann Point Avenue in Rocky
Point, North Carolina (the “property”). See id. at 3-5.
On July 25, 2013, the Vasquezes executed a deed of
trust in favor of Chase concerning the property to
secure a home mortgage note with an original balance
of $268,000. See id. at 5-6,11-31. When the Vasquezes
filed their Chapter 7 petition, the Vasquezes’ home mortgage note had an outstanding balance of $240,464.48,
and the property had a fair market value of $219,705.
See id. at 6-7.
In the adversary proceeding, the Vasquezes argued that, under 11 U.S.C. § 506(a), the amount of
Chase’s secured claim was the property’s fair market
value, not the outstanding home mortgage note balance. The Vasquezes then argued that 11 U.S.C.
§ 506(d) operates to void Chase’s lien to the extent the
outstanding home mortgage note balance exceeded
the property’s fair market value. See id. at 3-9; Order
at 2. In accordance with Dewsnup, 502 U.S. at 415-20,
the Bankruptcy Court rejected that argument. The
Bankruptcy Court noted that Dewsnup established a
two-part inquiry to determine if a creditor’s claim
was an “allowed secured claim” under section 506(d):
(1) whether the creditor’s claim “allowed” under 11

5a
U.S.C. § 502(a); and (2) whether the creditor’s claim
is “secured” under section 506(a). See Order at 4;
Dewsnup, 502 U.S. at 415-17. If a creditor’s claim is
both “allowed” and “secured” under the respective
bankruptcy code provisions, section 506(d) does not operate to disallow (i.e., “strip down”) the creditor’s claim.
See Order at 4; Dewsnup, 502 U.S. at 415-17. The
Bankruptcy Court held that Chase’s claim was “allowed” and “secured.” Accordingly, the Bankruptcy
Court held that under Dewsnup the court could not
“strip down” Chase’s lien under section 506(d) to the
property’s fair market value. In reaching this conclusion, the Bankruptcy Court thoroughly discussed the
Vasquezes’ arguments concerning why the Supreme
Court wrongly decided Dewsnup, but concluded that
Dewsnup controlled the disposition of the Vasquezes
adversary proceeding. See id. at 5-10. This appeal followed.
The Bankruptcy Court possessed authority to enter a final judgment, and this court has jurisdiction
over this appeal. See, id., 28 U.S.C. § 158(a); Exec. Benefits Ins. Agency v. Arkison, 573 U.S. 25, 32-38 (2014);
Stern v. Marshall, 564 U.S. 462, 482-503 (2011). This
court reviews a bankruptcy court’s conclusions of law
de novo and reviews its findings of fact for clear error.
See, e.g., Sartin v. Macik, 535 F.3d 284, 287 (4th Cir.
2008); In re White, 487 F.3d 199, 204 (4th Cir. 2007).
The court has reviewed the Bankruptcy Court order, the record on appeal, and the briefs. The Bankruptcy Court thoroughly analyzed the record, the
bankruptcy code provisions, and governing Supreme

6a
Court precedent. See [D.E.1-1]. The court agrees with
the Bankruptcy Court’s thorough analysis and conclusions. See id. The Bankruptcy Court’s findings of
fact are not clearly erroneous, and its conclusions of
law are correct. Moreover, the Vasquezes effectively
concede that the Bankruptcy Court reached the proper
outcome under Dewsnup. See [D.E. 15] 14-15. Although both parties offer reasonable arguments concerning whether the Supreme Court correctly decided
Dewsnup, only the Supreme Court may chart a new
course.
II.
In sum, the court AFFIRMS the Bankruptcy Court
order [D.E. 1-1].
SO ORDERED. This 27 day of August 2020.
/s/ James Dever
JAMES C. DEVER III
United States District Judge

7a
SO ORDERED.

[SEAL]

SIGNED this 25 day of March, 2020.
/s/ Stephani W. Humrickhouse
Stephani W. Humrickhouse
United States
Bankruptcy Judge
UNITED STATES BANKRUPTCY COURT
EASTERN DISTRICT OF NORTH CAROLINA
WILMINGTON DIVISION
IN RE:

CASE NO.

JESUS VASQUEZ, JR. and
PENNY LEIGH VASQUEZ

19-01841-5-SWH
CHAPTER 7

DEBTORS
JESUS VASQUEZ, JR. and
PENNY LEIGH VASQUEZ
Plaintiffs

ADVERSARY
v.
PROCEEDING
JPMORGAN CHASE BANK, NO. 19-00100-5-SWH
N.A.
Defendant.
ORDER ALLOWING MOTION TO DISMISS
This matter came on to be heard upon the motion
to dismiss filed by JPMorgan Chase Bank, N.A. on
August 21, 2019 (the “Motion to Dismiss”) (Dkt. 6). A
hearing was held in Wilmington, North Carolina on
December 11, 2019. The issue before the court is

8a
whether a chapter 7 debtor can strip down a mortgage
lien to the value of the real property. The matter turns
on the interplay between sections 506(a) and 506(d) of
the Bankruptcy Code, as well as the binding precedents of Dewsnup v. Timm and Bank of America, N.A.
v. Caulkett. For the reasons set forth below, the motion
will be allowed.
BACKGROUND AND
PROCEDURAL POSTURE
Jesus and Penny Leigh Vasquez filed a petition for
relief under chapter 7 of the Bankruptcy Code on April
22, 2019. The Vasquezes own and reside at real property located at 404 Swann Point Avenue, Rocky Point,
North Carolina 28457 (the “Property”). The Vasquezes
purchased the Property for $268,000 in 2013 and obtained a loan from JP Morgan Chase Bank, N.A.
(“JPMorgan”) secured by a first priority deed of trust
on the Property. The first deed of trust was recorded in
the Pender County Registry on July 25, 2013, in the
amount of $268,000. On the petition date, the balance
owed to JPMorgan was $240,464.48. Subsequently, the
Vasquezes borrowed money from the North Carolina
Housing Finance Agency secured by a second deed of
trust recorded in Pender County on April 23, 2015. On
the petition date, the balance owed on the second deed
of trust was $34,000. The debtors scheduled the value
of the property in their petition as $219,705 and noted
that it reflected the value of the most recent Pender
County tax valuation. On the petition date, the amount
owing on the first deed of trust exceeded the scheduled

9a
value of the Property; as a result, the first deed of trust
was “partially underwater” and the second deed of
trust was “fully underwater.”
On June 21, 2019, the debtors filed the complaint
initiating this adversary proceeding to determine the
validity, priority, and extent of JPMorgan’s lien. The
debtors/plaintiffs argued that under 11 U.S.C. § 506(a),
JPMorgan’s claim was secured in the amount of
$220,000, not $240,464.48 (petition date balance) and
requested the court determine that JPMorgan’s lien is
void to the extent it exceeds the value of the Property.
The debtors received their chapter 7 discharge on August 7, 2019. JPMorgan filed a motion to dismiss the
complaint on August 21, 2019 on grounds that the relief sought in the complaint was expressly prohibited
by the Bankruptcy Code and governing caselaw. A
hearing on that motion was held in Wilmington, North
Carolina, on December 11, 2019.
DISCUSSION
A defendant may move to dismiss a case for failure
to state a claim upon which relief may be granted under Federal Rule of Civil Procedure 12(b)(6), as made
applicable to adversary proceedings through Federal
Rule of Bankruptcy Procedure 7012. It is well settled
that “[t]he purpose of a Rule 12(b)(6) motion is to test
the sufficiency of the complaint.” Edwards v. City of
Goldsboro, 178 F.3d 231, 243 (4th Cir. 1999). A complaint must contain sufficient facts that when accepted
as true, “state a claim to relief that is plausible on its

10a
face.” Bell Atlantic Corp. v. Twombly, 550 U.S. 544, 570
(2007); Ashcroft v. Iqbal, 556 U.S. 662, 679 (2009).
When ruling on a 12(b)(6) motion, a court must accept
the plaintiff ’s factual allegations as true and draw all
reasonable factual inferences in the plaintiff ’s favor.
Iqbal, 556 U.S. at 678-79. However, “the tenet that a
court must accept as true all of the allegations contained in a complaint is inapplicable to legal conclusions,” and the court is “not bound to accept as true a
legal conclusion couched as a factual allegation.” Id. at
678 (internal quotation omitted).
Whether a claim is secured, and in what amount,
is determined through application of § 506(a)(1) of the
Code, which provides in relevant part:
An allowed claim of a creditor secured by a
lien on property in which the estate has an interest . . . is a secured claim to the extent of
the value of such creditor’s interest in the estate’s interest in such property . . . and is an
unsecured claim to the extent that the value
of such creditor’s interest . . . is less than the
amount of such allowed claim.
11 U.S.C. § 506(a)(1). Disallowance of claims is determined through application of § 506(d), which provides
in relevant part that “No the extent that a lien secures
a claim against the debtor that is not an allowed secured claim, such lien is void,” subject to certain exceptions. 11 U.S.C. § 506(d).
The larger issue here is the proper interpretation
of the Supreme Court’s rulings in Dewsnup v. Timm,

11a
502 U.S. 410 (1992), and Bank of America, N.A. v.
Caulkett, 575 U.S. 790 (2015). In Dewsnup, a chapter 7
debtor filed an adversary proceeding to void a mortgage lien under § 506(d) of the Code. 502 U.S. at 413.
The Supreme Court denied the relief sought by the
debtor and held that a chapter 7 debtor could not use
§ 506(d) to partially void or strip down a mortgage lien
that was both secured by real property and allowed under § 502. Id. at 417. Citing respondents’ argument
that “the words ‘allowed secured claim’ in § 506(d) need
not be read as an indivisible term of art defined by
reference to 506(a),” the Court agreed that § 506(d)
“should be read term-by-term to refer to any claim that
is, first, allowed, and second, secured.” Id. at 415. The
Dewsnup two-step analysis can best be understood in
the following way: First, is the claim allowed under
§ 502? Second, is the claim secured under § 506(a)? If
the answer to both questions is yes, then the claim cannot be disallowed by § 506(d).
The Court additionally based its holding on what
it found to be pre-Code bankruptcy practice of preserving liens on real property. The Court noted that if it
were “writing on a clean slate, we might be inclined to
agree that the words ‘allowed secured claim’ must take
the same meaning in § 506(d) as in § 506(a).” Id. at 417.
However, the Court concluded, there was nothing in
the legislative history to indicate that Congress intended to change the law: “This Court has been reluctant to accept arguments that would interpret the
Code, however vague the particular language under
consideration might be, to effect a major change in pre-

12a
Code practice that is not the subject of at least some
discussion in the legislative history.” Id. at 419. Thus,
the Court declined to read into the Code’s ambiguity a
“broad new remedy.” Id. at 420. Instead, the Court concluded that “given the ambiguity in the text, [it was]
not convinced that Congress intended to depart from
the pre-Code rule that liens pass through bankruptcy
unaffected,” and thus declined to partially void the undersecured mortgage. Id. at 417.
The Court expanded the holding of Dewsnup in
Bank of America, N.A. v. Caulkett, 575 U.S. 790, 135
S. Ct. 1995 (2015). In Caulkett, a chapter 7 debtor sought,
unsuccessfully, to “strip off ” a junior mortgage lien that
was “wholly underwater.” 135 S. Ct. at 1998. The Court
declined to limit Dewsnup to partially underwater
liens, reasoning that Dewsnup’s definition did not depend on such a distinction, and that not extending
Dewsnup’s holding could lead to “arbitrary results”:
“Under the debtors’ approach, if a court valued the collateral at one dollar more than the amount of a senior
lien, the debtor could not strip down a junior lien under
Dewsnup, but if it valued the property at one dollar
less, the debtor could strip off the entire junior lien.”
Id. at 2001. The Court reaffirmed that “Dewsnup defined the term ‘secured claim’ in § 506(d) to mean a
claim supported by a security interest in property, regardless of whether the value of that property would
be sufficient to cover the claim.” Id. at 1999.
Returning to the facts of this case, the court concludes that Dewsnup is controlling here. Like the underlying claim in Dewsnup, there is no dispute that

13a
JPMorgan’s claim is an “allowed” claim under § 502,
and that it is secured by a first priority lien with recourse to the underlying collateral. Since it is both allowed and secured under § 506(a), it cannot be avoided
under § 506(d). Under Dewsnup, the debtors cannot
use § 506(d) to strip down JPMorgan’s lien.
The plaintiffs acknowledge, of course, that this
court must fully comply with Dewsnup, but are earnest
in their desire to be heard. “While this [c]ourt cannot
undo the travesty that is Dewsnup,” they argue, “it is
the hope of Plaintiffs that this [c]ourt will emphasize
to the courts above how erroneous the reasoning in
Dewsnup is and how much it complicates bankruptcy
practice at this level.” Pls.’ Resp. to Def.’s Mot. Dismiss 5
(Dkt. 11) (“Plaintiffs’ Response”). Even though Dewsnup
controls the outcome here, the court recognizes that
there are compelling arguments for why it should be
overruled, some of which have been put forward by the
plaintiffs, and reviews those arguments below.
First, plaintiffs point to wide and consistent criticism leveled at the Supreme Court’s decision in
Dewsnup since it was decided. This began on day one
with Justice Scalia’s dissent, in which he argued that
the majority’s decision to treat “allowed secured claim”
differently in sections 506(a) and 506(d) “replace[ed]
what Congress said with what it thinks Congress
ought to have said – and in the process disregard[ed],
and hence impair[ed] for future use, well-established
principles of statutory construction.” Dewsnup, 502
U.S. at 420 (Scalia, J., dissenting). To Justice Scalia, the
natural reading of the Code allowed for lien stripping:

14a
“When § 506(d) refers to an ‘allowed secured claim,’ it
can only be referring to that allowed ‘secured claim’ so
carefully described two brief subsections earlier.” Id. at
421 (Scalia, J., dissenting). Citing the well-established
rule of statutory interpretation that “identical words
used in different parts of the same act are intended to
have the same meaning,” Justice Scalia noted that the
rule “must surely apply, a fortiori, to use of identical
words in the same section of the same enactment.” Id.
at 422 (internal quotations omitted) (Scalia, J., dissenting).
Although not specifically highlighted by the plaintiffs, the court offers some additional observations. The
majority opinion in Dewsnup is a mere four pages long.
Fundamentally, it parts ways with Justice Scalia’s
analysis by determining that § 506 is ambiguous and
thus amenable to interpretation guided by legislative
history, or, as here, the lack thereof. See id. at 419-20.
In contrast, Justice Scalia comfortably concludes that
the plain language of the statute is unambiguous and
easily interpreted. Id. at 420. The majority opinion is
reluctant and almost apologetic in tone, noting that the
position espoused by the respondents, and adopted by
the Court, is “not without its difficulty.” Id. at 417. And
at the outset, the Court recognizes the limited application of its opinion by stating that the Court will “therefore focus upon the case before us and allow other facts
to await their legal resolution for another day.” Id. at
416-17.
Plaintiffs note that circuit and bankruptcy courts
also have criticized Dewsnup. See, e.g,. In re Woolsey,

15a
696 F.3d 1266, 1274 (10th Cir. 2012) (“Right or wrong,
the Dewsnuppian departure from the statute’s plain
language is the law. It may have warped the bankruptcy code’s seemingly straight path into a crooked
one. It may not be infallible. But until and unless the
Court chooses to revisit it, it is final.”); In re Dever, 164
B.R. 132, 138 (Bankr. C.D. Cal. 1994) (“The basic premises of the Dewsnup opinion are faulty.”). So, too, have
many legal scholars. See, e.g., Lawrence Ponoroff & F.
Stephen Knippenberg, The Immovable Object Versus
the Irresistible Force: Rethinking the Relationship Between Secured Credit and Bankruptcy Policy, 95 Mich.
L. Rev. 2234, 2307 (1997) (“Despite its interference
with the Code’s fresh-start policy, Dewsnup has proved
tenacious. In large measure, we believe that it has
been difficult to eradicate because it hangs on a false
conception of bankruptcy and, in particular, an appealing but ultimately inaccurate conception of the nature
of security in bankruptcy.”); Mary Josephine Newborn,
Undersecured Creditors in Bankruptcy: Dewsnup, Nobelman, and the Decline of Priority, 25 Ariz. St. L.J.
547, 557 (1993) (criticizing Dewsnup’s “atavistic” in
rem approach to security). Several of these scholarly
criticisms turn on Dewsnup’s principle of liens passing
through bankruptcy unaffected, which reflects an in
rem system where a secured creditor seizes a specific
piece of collateral in order to satisfy debt and the lien
stays attached until the full debt is paid regardless of
the collateral’s value. Additionally they note that
Dewsnup is based on a flawed concept of lien preservation: Not only is it untrue that liens always pass
through bankruptcy unaffected, much of the Code

16a
operates on a priority system that focuses more simply
on the rights of certain secured creditors to be paid
first and often only to the extent of the value of the underlying collateral.
Plaintiffs also note that this reliance upon the
sanctity of the lien and actual misinterpretation of
Dewsnup has led to “further evisceration” of § 506(d).
Plaintiffs’ Response at 6. The precedent set by Dewsnup
has indeed led to inconsistent interpretation and, in
fact, misapplication of both its holding and of the Bankruptcy Code. Dewsnup depends in large part upon its
two-step analysis, wherein a claim must first be allowed under § 506(a) to withstand avoidance under
§ 506(d). However, plaintiffs point to two circuit court
cases in which § 506(d) lien avoidance was denied for
claims that were disallowed under § 502(b)(9), i.e. they
were not timely filed. See In re Shelton, 735 F.3d 747,
748-49 (8th Cir. 2013), cert. denied, 72 U.S. 1116 (2014);
In re Hamlett, 322 F.3d 342, 347 (4th Cir. 2003). Relying on Dewsnup for its dicta that liens pass through
bankruptcy unaffected, both courts found that lien
avoidance for untimely claims would result in an unintended departure from pre-Code practice. Shelton, 735
F.3d at 748-49; Hamlett, 322 F.3d at 349-50. Interestingly, neither case discussed Dewsnup’s core holding –
the two-step analysis, which depends on an allowed
claim to survive avoidance.
Both Dewsnup, and Caulkett citing Dewsnup, relied upon the principle that liens pass through bankruptcy unaffected. This dicta from Dewsnup clearly has
influenced the decisions of several courts and created

17a
confusion when put up against the countervailing principle of the fresh start. See Woolsey v. Citibank, N.A.,
696 F.3d 1266, 1274 (10th Cir. 2012) (“Whatever precode practice looked like, it would seem to have (at
best) limited interpretive significance today, given that
Chapter 7 indubitably permits liens to be removed in
many situations.”). To be sure, many liens do not pass
through bankruptcy unaffected. Bankruptcy’s fresh
start is always balanced against the rights of creditors,
but that does not mean that creditors receive the full
value of their liens. For example, chapter 11 allows
debtors to “impair or leave unimpaired any class of
claims, secured or unsecured,” 11 U.S.C. § 1123(b)(1),
as well as “modify the rights of holders of secured
claims, other than a claim secured only by a security
interest in real property that is the debtor’s principal
residence, or of holders of unsecured claims.” 11 U.S.C.
§ 1123(b)(5). Chapter 11 debtors may confirm plans
over the objection of creditors through “cramdown,”
which is often premised on the valuing down of real
property. Chapter 13 and chapter 12 debtors have the
same ability as chapter 11 debtors to modify the rights
of the holders of secured claims. 11 U.S.C. §§ 1322(b)(2),
1222(b)(2). Additionally, chapter 7, 11, 12, and 13 debtors can specifically avoid judgment liens if they would
impair an exemption. 11 U.S.C. § 522(f )(1). The Code
recognizes multiple instances in which liens are not
categorically protected. What the debtors seek here
(and what the debtors in Dewsnup sought) is another
exception to a rule that already has many exceptions.

18a
Courts have been unclear as to the application of
Dewsnup to cases under different sections of the Code
and the effect has been to create a substantive difference of treatment among claims under § 506(d) – even
though chapter 5 is one of general applicability to all
types of bankruptcy cases. 11 U.S.C. § 103(a). The Supreme Court in Dewsnup acknowledged the ambiguities of § 506 and chose to limit its holding to “the case
before [it] and allow other facts to await their legal resolution on another day.” 502 U.S. at 417. However,
faced with such ongoing ambiguities, courts have
struggled with whether to limit or expand its core holding. The current system allows for the valuing down of
claims under § 506 in chapter 11, chapter 12, and chapter 13, but in the latter, only wholly underwater liens
that are based on mortgage loans can be valued down.
In a chapter 13 case, Supreme Court precedent prohibits the valuing down of mortgage liens that are merely
undersecured.1 Nobleman v. Am. Sav. Bank, 508 U.S.
1

In Nobleman, chapter 13 debtors sought to bifurcate an undersecured mortgage lender’s claim based upon the language of
§ 506(a). 508 U.S. at 326. The Supreme Court addressed the question of “whether § 1322(b)(2) prohibits a Chapter 13 debtor from
relying on § 506(a) to reduce an undersecured homestead mortgage to the fair market value of the mortgaged residence,” and
held that it does. Id. Specifically, the Court found that bifurcation
under § 506(a) would impermissibly modify creditor “rights that
were ‘bargained for by the mortgagor and the mortgagee’ . . . , and
are rights protected from modification by § 1322(b)(2).” Id. at 329
(quoting Dewsnup, 502 U.S. at 417). Specifically, § 1322(b)(2) allows a debtor to “modify the rights of holders of secured claims,
other than a claim secured only by a security interest in real property that is the debtor’s principal residence.” 11 U.S.C. § 1322(b)(2).
While Nobleman cited dicta from Dewsnup, it avoided having to

19a
324 (1993). Additionally, as a result of Dewsnup and
Caulkett, claims in chapter 7 can never be valued down,
even when they are wholly underwater.
In this proceeding, plaintiffs see an opportunity in
dicta from Caulkett, specifically that the Supreme
Court acknowledged in that case that it had not been
asked to overrule Dewsnup. 135 S. Ct. at 2001. However, it is unclear whether the Court would consider
apply Dewsnup’s specific holding (about the interplay between
§ 506(a) and § 506(d)) to the chapter 13 context by finding that
the claim treatment sought by the debtors was precluded by another section of the Code. 508 U.S. at 331.
Lower courts also have found a way to distinguish chapter 13
cases. Despite Nobleman, this Court has held that chapter 13
debtors can avoid fully underwater junior mortgage liens. In In re
Kidd, the court first found that the junior mortgage creditor’s entire claim was unsecured under § 506(a) because the value of the
property was less the claim of the senior mortgage holder. In re
Kidd, 161 B.R. 769, 770 (Bankr. E.D.N.C. 1993). Then, the court
found that the facts of the case were “significantly different than
those in Nobleman,” and that the limitation in § 1322(b)(2) did
not apply. Id. Specifically, the court noted that the creditor in Nobleman had a partially secured claim, which allowed it to take
advantage of the protection provided to mortgage lien holders under § 1322(b)(2). Id. at 770-71. Because no portion of the junior
mortgage creditor’s claim in Kidd was secured under § 506(a), its
lien was not protected by § 1322(b)(2) and could be avoided under
§ 506(d). Id. at 771; see also In re Bartee, 212 F.3d 277, 295 (5th
Cir. 2000) (holding that chapter 13 antimodification provisions do
not apply to wholly unsecured mortgage liens); In re McDonald,
205 F.3d 606, 615 (3d Cir.) (holding that “a wholly unsecured mortgage is not subject to the antimodification clause in § 1322(b)(2)”),
cert. denied, 531 U.S. 822 (2000); In re Lam, 211 B.R. 36, 41 (9th
Cir. B.A.P. 1997) (“The extension of the protections of section
1322(b) to wholly unsecured lien holders is contrary to the provisions of the bankruptcy code allowing dischargeability of unsecured claims.”).

20a
arguments for overturning Dewsnup, given that the
Court declined to do so as recently as February of 2019,
when it denied a petition for certiorari in Ritter v.
Brady, 139 S. Ct. 1186 (Mem.) (2019). In Ritter, a chapter 7 debtor sought to reopen her bankruptcy case for
reconsideration after an unsuccessful attempt to avoid
a junior mortgage lien. In re Ritter, 730 Fed. Appx. 529,
529-30 (Mem) (9th Cir. 2018). The Ninth Circuit affirmed the Bankruptcy Appellate Panel and the bankruptcy court by denying the debtor’s motions to reopen
and for reconsideration based on the holdings of
Dewsnup and Caulkett, holding that “the lien avoidance mechanism in 11 U.S.C. § 506(d) is not available
when a claim secured by a lien has been allowed under
§ 502.” Id. at 530. It should be noted that the issue
of whether Dewsnup should be overturned was not
squarely before the Ritter court, especially considering
the highly discretionary standard for reopening a
bankruptcy case.
On these points, JPMorgan correctly notes that
Congress has repeatedly passed on opportunities to
amend the Code to supersede Dewsnup’s interpretation of § 506(d). While BAPCPA specifically amended
other parts of § 506, it did nothing to disturb Dewsnup.
So, in this matter, although plaintiffs have put forth
several compelling and legally sound reasons for why
Dewsnup should be overturned, the court must conclude that Dewsnup remains well-settled albeit controversial precedent. It is up to the Supreme Court to
reverse its decision.

21a
CONCLUSION
Based on the foregoing, the motion to dismiss the
complaint is hereby GRANTED, and the adversary
proceeding is DISMISSED.

